Department of Health and Human Services 

                   OFFICE OF 

              INSPECTOR GENERAL 



 ILLINOIS CLAIMED POTENTIALLY


   UNALLOWABLE COMMUNITY


  SERVICES BLOCK GRANT COSTS


     FOR COMMUNITY ACTION


    PARTNERSHIP OF CENTRAL


     ILLINOIS’ EXPENDITURES


   UNDER THE RECOVERY ACT



    Inquiries about this report may be addressed to the Office of Public Affairs at
                             Public.Affairs@oig.hhs.gov. 
                                            




                                                              Sheri L. Fulcher


                                                         Regional Inspector General 


                                                                  April 2013


                                                                A-05-12-00018 

                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                            Notices


         THIS IS A LIMITED OFFICIAL USE REPORT

This report should not be reproduced or released to a party other than
the addressee without specific written approval of the Deputy Inspector
General for Audit Services.

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The recommendation for the disallowance of costs incurred or claimed
and any other conclusions and recommendations in this report represent
the findings and opinions of OAS. Final determination on these matters
will be made by authorized officials of the awarding agency.
                                 EXECUTIVE SUMMARY 


BACKGROUND

The American Recovery and Reinvestment Act of 2009 (Recovery Act), P.L. No. 111-5,
provided $1 billion to the Community Services Block Grant (CSBG) program for fiscal years
(FY) 2009 and 2010. As with annually appropriated CSBG funds, Recovery Act funds were to
be used to reduce poverty, revitalize low-income communities, and help low-income Americans.
In addition, CSBG services funded by the Recovery Act were to be provided on or before
September 30, 2010.

Within the U.S. Department of Health and Human Services, the Administration for Children and
Families (ACF), Office of Community Services, administers the CSBG program. The CSBG
program funds a State-administered network of more than 1,100 local community action
agencies (CAA) that deliver programs and services to low-income Americans. The CAAs
provide services addressing employment, education, better use of available income, housing,
nutrition, and health to combat the causes of poverty.

In the State of Illinois, the Department of Commerce and Economic Opportunity, Office of
Community Development (State agency), was responsible for approving CAAs’ applications for
CSBG Recovery Act funds and monitoring CAAs’ compliance with program requirements.
Under the Recovery Act, the State agency was awarded $47,232,781 in CSBG funds for FYs
2009 and 2010.

Community Action Partnership of Central Illinois (CAPCIL) is a nonprofit CAA that has served
low-income individuals in DeWitt, Fulton, Logan, Mason, Menard, and Piatt counties of Illinois
since 1966. The mission of CAPCIL is to eliminate the causes and effects of poverty in Illinois
through various programs. The State awarded CAPCIL $614,065 in CSBG grant funds for FYs
2009 and 2010 and $408,359 in CSBG Recovery Act funds for the period May 1, 2009, through
September 30, 2010.

By accepting grant awards, States agree to comply with Federal regulations governing the
administration of the grants, including compliance with various cost principles. The CSBG Act
requires that States receiving CSBG funds ensure that cost and accounting standards of the
Office of Management and Budget apply to a recipient of the funds. Nonprofit CAAs are subject
to 45 CFR pt. 74. These regulations state that the allowability of costs will be determined in
accordance with 2 CFR pt. 230, Cost Principles for Non-Profit Organizations. To be allowable
under an award, costs must be reasonable for the performance of the award and allocable to the
award under these principles.

OBJECTIVE

Our objective was to determine whether selected CSBG Recovery Act costs that the State agency
claimed for CAPCIL’s program expenditures were allowable under the terms of the Recovery
Act grant and applicable Federal regulations.




                                               i
SUMMARY OF FINDINGS

Of the $197,854 of CSBG Recovery Act costs that the State agency claimed for CAPCIL’s
program expenditures and that we reviewed, $77,070 was allowable under the terms of the
Recovery Act grant and applicable Federal regulations. However, the State claimed $120,784 in
costs (or 61 percent of reviewed expenditures) to the grant that may be potentially unallowable,
including:

   		     $102,032 in indirect costs that may have been improperly charged as direct costs and

   		     $18,752 in client assistance costs that may have been inadequately documented.

The potentially unallowable direct costs the State claimed on behalf of CAPCIL occurred
because CAPCIL’s method for allocating costs to Federal awards was not compliant with 2 CFR
pt. 230. In addition, CAPCIL did not follow its own policies and procedures for maintaining
adequate supporting documentation for client assistance costs.

RECOMMENDATIONS

We recommend that the State agency:

   		     work with CAPCIL to determine what portion of the $120,784 is allowable and
           refund to the Federal government any amount determined to be unallowable,

   		     ensure CAPCIL uses a method for allocating costs to Federal awards that is compliant
           with 2 CFR pt. 230, and

   		     ensure that CAPCIL follows its policies and procedures to assure that all costs
           charged to Federal awards are in compliance with applicable Federal regulations.

COMMUNITY ACTION PARTNERSHIP OF CENTRAL ILLINOIS COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, CAPCIL disagreed with our findings. In addition to its
comments, CAPCIL provided documentation to support its opinion. After reviewing CAPCIL’s
comments and documentation, we maintain that our findings and recommendations are valid.

STATE COMMENTS

In written comments on our draft report, the State partially concurred with our first finding and
disagreed with our second finding.

Regarding our first finding on improperly charged direct costs, the State agrees that a portion of
the costs are unallowable. The State worked with CAPCIL to determine the unallowable portion
of improperly charged direct costs.


                                                 ii
In response to our second finding on inadequately documented client assistance costs, the State
believes that adequate documentation was provided to support the costs.

OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing the State’s comments, we maintain that our findings and recommendations are
valid. Since an indirect cost rate was never negotiated with the cognizant Federal agency for the
Recovery Act grant, we cannot determine the allowable portion of the improperly charged direct
costs. The additional documentation provided does not adequately support the client assistance
costs claimed due to discrepancies between CAPCIL’s client files and the additional
documentation as provided.




                                               iii
                                                 TABLE OF CONTENTS



                                                                                                                               Page 


INTRODUCTION....................................................................................................................1 


          BACKGROUND ...........................................................................................................1         

              The American Recovery and Reinvestment Act ................................................1 

              Community Services Block Grant Program ......................................................1 

              Illinois Department of Commerce and Economic Opportunity, 

                  Office of Community Development ..............................................................1 

              Community Action Partnership of Central Illinois ............................................1 

              Federal Requirements for Grantees ...................................................................2 


          OBJECTIVE, SCOPE, AND METHODOLOGY .........................................................2 

               Objective ............................................................................................................2    

               Scope..................................................................................................................2   

               Methodology ......................................................................................................2        


FINDINGS AND RECOMMENDATIONS ..........................................................................3 


          INADEQUATELY SUPPORTED DIRECT COSTS ...................................................4 


          CLIENT ASSISTANCE COSTS INADEQUATELY DOCUMENTED .....................4 


          LACK OF ADEQUATE MONITORING PROCEDURES ..........................................5 


          RECOMMENDATIONS ...............................................................................................5                


          COMMUNITY ACTION PARTNERSHIP OF CENTRAL ILLINOIS 

           COMMENTS AND OFFICE OF INSPECTOR GENERAL RESPONSE................5 


          STATE COMMENTS ...................................................................................................6 


          OFFICE OF INSPECTOR GENERAL RESPONSE ....................................................6 


APPENDIXES

          A: COMMUNITY ACTION PARTNERSHIP OF CENTRAL ILLINOIS COMMENTS

          B: STATE COMMENTS




                                                                   iv
                                       INTRODUCTION 


BACKGROUND

The American Recovery and Reinvestment Act

The American Recovery and Reinvestment Act of 2009 (Recovery Act), P.L. No. 111-5,
authorized supplemental appropriations for job preservation and creation, infrastructure
investment, energy efficiency and science, assistance to the unemployed, and State and local
fiscal stabilization. The Recovery Act provided $1 billion to the Community Services Block
Grant (CSBG) program for fiscal years (FY) 2009 and 2010. As with annually appropriated
CSBG funds, Recovery Act funds were to be used to reduce poverty, revitalize low-income
communities, and help low-income Americans. In addition, CSBG services funded by the
Recovery Act were to be provided on or before September 30, 2010.

Community Services Block Grant Program

The CSBG program was reauthorized by the Community Opportunities, Accountability, and
Training and Educational Services Act of 1998 (CSBG Act), P.L. No. 105-285, to provide funds
to alleviate the causes and conditions of poverty in communities. Within the U.S. Department of
Health and Human Services (HHS), the Administration for Children and Families (ACF), Office
of Community Services, administers the CSBG program.

The CSBG program funds a State-administered network of more than 1,100 local community
action agencies (CAA) that deliver programs and services to low-income Americans. The CAAs
provide services addressing employment, education, better use of available income, housing,
nutrition, and health to combat the causes of poverty. Recovery Act grant funds were intended to
cover additional costs for the same types of services.

Illinois Department of Commerce and Economic Opportunity, Office of Community
Development

In the State of Illinois, the Department of Commerce and Economic Opportunity, Office of
Community Development (State agency), was responsible for approving CAAs’ applications for
CSBG Recovery Act funds and monitoring CAAs’ compliance with program requirements.
Under the Recovery Act, the State agency was awarded $47,232,781 in CSBG funds for FYs
2009 and 2010.

Community Action Partnership of Central Illinois

Community Action Partnership of Central Illinois (CAPCIL) is a nonprofit CAA that has served
low-income individuals in DeWitt, Fulton, Logan, Mason, Menard, and Piatt counties of Illinois
since 1966. The mission of CAPCIL is to eliminate the causes and effects of poverty in Illinois.
CAPCIL offers programs in transportation, housing, education, youth services, energy, and
economic development activities to assist individuals and families to improve the quality of their
lives. The State awarded CAPCIL $614,065 in CSBG grant funds for FYs 2009 and 2010 and

                                                1

$408,359 in CSBG Recovery Act funds for the period May 1, 2009, through September 30,
2010.

Federal Requirements for Grantees

By accepting grant awards, States agree to comply with Federal regulations governing the
administration of the grants, including compliance with various cost principles. Section
678D(a)(1)(B) of the CSBG Act, requires that States receiving CSBG funds ensure that cost and
accounting standards of the Office of Management and Budget (OMB) apply to a recipient of the
funds under this subtitle. As a result, ACF determined that non-profit CAAs are subject to
45 CFR pt. 74. Federal regulations (45 CFR § 74.27(a)) state that the allowability of costs will
be determined in accordance with 2 CFR pt. 230 (formerly OMB Circular A-122), Cost
Principles for Non-Profit Organizations.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether selected CSBG Recovery Act costs that the State agency
claimed for CAPCIL’s program expenditures were allowable under the terms of the Recovery
Act grant and applicable Federal regulations.

Scope

We reviewed $197,854 of the State agency’s claim of $408,359 for CAPCIL’s program
expenditures funded by the Recovery Act award for the period of May 1, 2009, through
September 30, 2010. This review is part of a series of audits planned by the Office of Inspector
General to provide oversight of funds provided through the Recovery Act. We did not review
the overall internal control structure of the State agency or of CAPCIL. Rather, we reviewed
only the internal controls that pertained to our objective.

We conducted our audit from November 2011 to April 2012 and performed fieldwork at
CAPCIL’s office in Lincoln, Illinois.

Methodology

To accomplish our objective, we:

   		 reviewed applicable Federal laws, regulations, and guidance;

   		 reviewed contractual agreements and amendments between the State agency and 

       CAPCIL for the period of May 1, 2009, through September 30, 2010; 


   		 reviewed CAPCIL’s board of directors’ meeting minutes;

   		 reviewed CAPCIL’s accounting policies and procedures;

                                                2

   		 reviewed CAPCIL’s cost allocation methodologies for shared costs;

   		 interviewed State agency officials to gain an understanding of their fiscal and program
       monitoring procedures;

   		 interviewed CAPCIL’s officials to gain an understanding of the costs charged under the
       award;

   		 reviewed the State agency’s fiscal and program monitoring reports;

   		 reviewed correspondence between the State agency and CAPCIL officials;

   		 reviewed CAPCIL’s audited financial statements for calendar years 2008, 2009, and
       2010;

   		 reconciled the costs that the State agency claimed under the award with CAPCIL’s
       general ledger;

   		 judgmentally selected and reviewed 37 transactions totaling $197,854 ($2,092 in salary
       and related costs and $195,762 in nonsalary costs) based on risk factors such as whether
       the transactions:

           o		 were high dollar;

           o		 were recorded near the end of grant period; or

           o		 appeared to be disproportionately allocated to the CSBG Recovery Act program;
               and

   		 discussed our findings with State agency and CAPCIL officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

                         FINDINGS AND RECOMMENDATIONS

Of the $197,854 of CSBG Recovery Act costs that the State agency claimed for CAPCIL’s
program expenditures and that we reviewed, $77,070 was allowable under the terms of the
Recovery Act grant and applicable Federal regulations. However, the State claimed $120,784 in
costs (or 61 percent of reviewed expenditures) to the grant that may be potentially unallowable,
including:


                                                3

        $102,032 in indirect costs that may have been improperly charged as direct costs and

        $18,752 in client assistance costs that may have been inadequately documented.

The potentially unallowable direct costs the State claimed on behalf of CAPCIL occurred
because CAPCIL’s method for allocating costs to Federal awards was not compliant with 2 CFR
pt. 230. In addition, CAPCIL did not follow its own policies and procedures for maintaining
adequate supporting documentation for client assistance costs.

INADEQUATELY SUPPORTED DIRECT COSTS

Federal cost principles (2 CFR pt. 230, App. A, §§ A.2.a. and A.2.g.) state that to be allowable
under a Federal award, costs must be reasonable, allocable, and adequately documented. In
addition, 2 CFR pt. 230, App. A, § A.4, states that a cost is allocable to an award if it benefits
both the award and other work and can be distributed in reasonable proportion to the benefits
received.

Federal regulations (45 CFR § 74.21(b)) state that grantees must maintain financial management
systems that contain written procedures for determining the reasonableness, allocability, and
allowability of costs. Grantees must also maintain accounting records that are supported by
source documentation and maintain financial systems that provide for accurate and complete
reporting of grant-related financial data.

CAPCIL did not adequately support $102,0321 in certain costs that were directly charged to the
Recovery Act grant. These costs benefitted multiple projects while the documentation provided
by CAPCIL was inadequate to show that these costs related solely to the Recovery Act grant.
For FYs 2009 and 2010, CAPCIL submitted cost allocation plans to the State agency detailing
how costs were to be allocated amongst CAPCIL’s various grants, including the CSBG grant.
However, the cost allocation plans did not include the CSBG Recovery Act grant. Without
adequate supporting documentation, we could not determine whether the costs were allocable to
the Recovery Act grant in reasonable proportion to the benefits received. Therefore, we could
not determine what portion of the $102,032 that CAPCIL charged to the Recovery Act grant was
allowable.

CAPCIL’s method for allocating costs to Federal awards as described above did not comply with
2 CFR pt. 230. We are deferring the questionable charges to the State, which should determine
the allowable amount and refund the unallowable amount to the Federal government.

CLIENT ASSISTANCE COSTS INADEQUATELY DOCUMENTED

Federal cost principles (2 CFR pt. 230, App. A, §§ A.2.a. and A.2.g.) state that to be allowable
under a Federal award, costs must be reasonable, allocable, and adequately documented.


1
 CAPCIL directly charged costs that include client assistance for food ($76,000), vehicle fuel ($13,000), supplies
($3,752), telephone expense ($3,500), travel ($3,000), and staff development ($2,780).


                                                         4

CAPCIL did not adequately document $18,7522 in claimed client assistance costs charged to the
Recovery Act grant. CAPCIL’s supporting documentation was inadequate to determine how the
client assistance costs were disbursed to CSBG eligible clients. Specifically, we were unable to
determine who received the client assistance, as well as the amount of assistance each client
received.

CAPCIL did not follow its own policies and procedures for maintaining adequate supporting
documentation for client assistance costs. Specifically, CAPCIL’s policies and procedures
manual required CAPCIL’s Program Directors to establish and maintain program fiscal records.
We are deferring the questionable charges to the State, which should determine the allowable
amount and refund the unallowable amount to the Federal government.

LACK OF ADEQUATE MONITORING PROCEDURES

The State agency did not have adequate monitoring procedures to ensure that the CSBG
Recovery Act costs claimed for CAPCIL’s program expenditures for direct costs and client
assistance costs were allowable in accordance with terms of the Recovery Act grant and
applicable Federal regulations. In a fiscal monitoring report covering CAPCIL’s use of non-
Recovery Act CSBG funds and CSBG Recovery Act funds, the State agency concluded there
was no evidence of any misuse or excessive use of CSBG funds and that all tested expenditures
were allowable, allocable, and supported with proper documentation.

We found, on the contrary, that CAPCIL charged potentially unallowable indirect costs as direct
costs that were not entirely allocable to the CSBG Recovery Act grant. In addition, CAPCIL did
not maintain adequate supporting documentation for client assistance costs.

RECOMMENDATIONS

We recommend that the State agency:

       		     work with CAPCIL to determine what portion of the $120,784 is allowable and
               refund to the Federal government any amount determined to be unallowable,

       		     ensure CAPCIL uses a method for allocating costs to Federal awards that is compliant
               with 2 CFR pt. 230, and

       		     ensure that CAPCIL follows its policies and procedures to assure that all costs
               charged to Federal awards are in compliance with applicable Federal regulations.

COMMUNITY ACTION PARTNERSHIP OF CENTRAL ILLINOIS COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, CAPCIL disagreed with our findings. In addition to its
comments, CAPCIL provided documentation to support its opinion. After reviewing CAPCIL’s

2
    CAPCIL claimed $18,752 for client assistance costs that include food ($10,752) and gift cards ($8,000).

                                                           5

comments and documentation, we maintain that our findings and recommendations are valid.
CAPCIL’s written comments are included as Appendix A.

STATE COMMENTS

In written comments on our draft report, the State partially concurred with our first finding and
disagreed with our second finding.

Regarding our first finding on improperly charged direct costs, the State agrees that a portion of
the costs are unallowable. The State worked with CAPCIL, using an OIG prepared document
that was subject to changes and intended for discussion purposes only, to calculate the allowable
portion of improperly charged direct costs. (Refer to OIG response below).

In response to our second finding on inadequately documented client assistance costs, the State
believes that adequate documentation was provided to support the costs.

The State’s written comments are included as Appendix B.

OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing the State’s comments, we maintain that our findings and recommendations are
valid. CAPCIL did not have an indirect cost allocation methodology to account for the CSBG
Recovery Act grant. Instead, CAPCIL directly charged the CSBG Recovery Act for costs that
benefitted multiple projects. During fieldwork, we provided CAPCIL a document which
contained examples of indirect cost allocation methodologies. This document was clearly
marked subject to changes and was intended for discussion purposes only. The State and
CAPCIL worked together and used one of our examples to calculate the allowable portion of
improperly charged direct costs. However, the OIG is not the cognizant Federal agency for the
Recovery Act Grant and is not authorized to approve indirect cost rates or methodologies. The
newly calculated costs continue to be improper because they were not calculated using an
indirect cost rate that was negotiated with and approved by ACF, the cognizant Federal agency
for the Recovery Act grant. Accordingly, CAPCIL and the State need to work with ACF to
determine the allowable portion of improperly charged direct costs.

The additional documentation provided does not adequately support the client assistance costs
charged to the Recovery Act grant. We identified several discrepancies between CAPCIL’s
client files and the additional documentation provided. For example, CAPCIL purchased 1,452
packages of food while the additional documentation provided by CAPCIL only reflected that
272 packages of food were distributed. Due to such discrepancies, we are unable to rely on the
accuracy of the additional supporting documentation as provided.




                                                 6

APPENDIXES


 APPENDIX A: COMMUNITY ACTION PARTNERSHIP OF CENTRAL ILLINOIS 

                         COMMENTS



                                                                                                            Fifth street Lincoln, IL 62656
                                                                                                               Telephone: 217-732-2159
                                                                                                                     Fax: 217-735-1753
                                                                                                                              capeil.org

         OF CENTRAL            ILLINOIS                          Pn>udly serving DeWlit, Fullon, Logan, Mason, Menard & Piatt Counties




         Office of Audit Services. Region V
         223 North Michigan. Suite 1360
         Chic~ IL 60601




         Dear Sheri L Fukher,

         Pll!ase at'Cept this letter as Community Aftion Partnership of Centl'<lllllinois's (CAPelL) response to the 0 !!ice of lnspe«o•
         (OIG) draft: report issued, November 20, 2012.

         Recommendation:
               That tbe State ~ncy work with CAPClL to determine wba.t portion oftbe $120,784 is allowable .and refund to the
               Fe deral government any amount detetmined to be unallowable.

         CAPelL does not conc:ur with the OIG findings. and bas provided necessary documentation to prove otbeM.se. CAPelL will
         work with tbe State agency to detemtine what portion is allowable and refund to the Federal govemmenuany amount
         detennined to be unallowable.

         Recommendation:
                  That tbe State ~ncy ensures CAPCIL uses a method for allocating costs to Federal awards that is compliant witb 2
                  CFRpt.230

         CAPelL does not conc:ur with OIG findings. .md bas provided necessary documentation to prove ocberwis.e. CAPelL will be
         sure to work with the State agency to use a method for allloca.ting eosts to Federal awards that is complia.ot with 2 CFR pt. 230.

         Recommendation:
               That tbe State ~ncy ensure that CAPCIL follows: its policies and procedures to assure that all co.sts charged to
               Fe deral awards are in compliance with applicable Federal regulations.

         CAPelL does not concur with OIG findings. and bas provided necessary documentation to prove otherwisE'. CAPCIL recognizes
         this recolllJllendation .md will work the State agency to assure that all policies and procedures regarding .all costs cb..lrged to
         Federal awards are in compliance with applicable Federal regulations. ,


         Yours Sincerely,
         !Jacob D. Sexton/

         Jacob D. Sexton
         Executive Director/ CEO
         CAPCJL
    DeWitt Outret~ch Office            Futton/Mason OUtreach Office                Menard Outreach Office               Piatt Outreach OffJCe
    1700 E. Main St., tt105            301 S. Dale St.                             1118 N. Fourth St.                   1115 N. State St., Ste 102
    Clinton, 1l61727                   Havana, ll62644                             Petersburg, 1l62675                  Monticello, ll61856
    217-935-2455                       309 - 543 - 6988                            217 - 632 - 3878                     217 - 762- 2421
Cloo~M~un~""*'"Pertl'ws'*olc:.nu.l lllndl~twXd~lndniMOcnto .....fiW«~.fl'llf!ld~tll ln~-otl«too.S. h ~ilflCIIllftiiU. II._. H~nRfel!la
ki ihel&CM llW!ia.irr,:t;.A.:llon r.o.di!leA.Nbllililoft.id; ihe"-r.c.tnNb.ld; t..ire~OieellmNilcn h £m*"-.ikt end h UAelld llnoll ~ lt,ou t..l \IOU n...,.
                                   t.en dl:leff~ . .I,.. ,ou '*""' • tlfll to f it • - p l lltll. For 1* - ' I I M , -EEO 011\oet e t 217·1'~15G.
                                                                                                           Page 1 of 3 




                           APPENDIX B: STATE COMMENTS


                                               Illinois
                                               Department of Commerce
                                            & EConomic Opportunity
                                            ~t Oo&inl\ Gow!mor




          11. 2013

Roport Number: A-0!;-12-()0018

Ms. Sheri L. Fulch•r
Reg,ionallnspedor General tor Audit Services.
U.S. Department ofHeatlh & Human Se1Vic:e5
Offioe o( lnsped:orG~neral
233 Nonh Mkh(lan, SLJitt 1360
Olkago, EL 6D601



Deal' Ms. Fulcher:

This letter is the Department of CfJrn111erce and £oonomlc OpportunltYs (OCEOJ re~onse to tt'le Illinois
Clotmed Portlltlally Unollowable eoa.munfty Srtrvkri Blotk Gf011t COS:ts /Ot Community Acti<lu
Portnership oj Centrul tllinois' £xpenditures Under the Rewvery Act report df.ted Dec;:emtler 19, 2012.

l'tle DCEO received $47,232,781 if' 2009 Recovery Att fundiqg, During tile same time period as the
Reco...ery Act r...ods wel'l! being !.pttnt.   oreo   also administered the 2DDSI and 2010   regular CS&G
programs-. It should be noted that the OctO recelvtd no admlnlstratrve funds to adminl~ter ttle
Re:tovery Ad funds, and was advi~d to mnve fl\l~fV to obtiS3W and spend these funds i" order to
~timulate the economy.


Prior to the awarding of Recovery Act giant fund~. the department felt It neCe$Sary to meet wil:tl ihe
Community Action Agenc:les to provide direction and instruclion on the pi'OO:!SS For awardirc funds. the
~ant allocat&on.. tlltl need for s.upport documentation. su.gg~ted work ptograrns with job creation being
the empha~is, the lmponance of preYe'ntlng dupltcatlon of reg~1lar CSBG 8111111 funds. Jnd '=eeping th~
Ret;O.,.ery A.ct fullds sepiirate lrorn other h.lnds.

A prote$1$ similar to thll awarding of regular CSBG grant fund1 was rollowed with state CSBG st3ff
revltwlne lndtllldual Community Action Agencv Recovery Act appliations and budgets.. The firSL
Ret;Overy Act funds wen: oblig-ated in May 2009. During the course of lhtl Reoovery Act., severl)t
me-etings wtN! htld to discuss lssuts and oonctms, and agatn emph..l)siie the importaru::e af
documentation and s.epantiEJn of funds.

Fallowing is OCEO's msponse- tl) the OIG ftndJngs although I>CEO agrees with the respans-e
p.-.par~d   by the community Aerion Partne-rship of Centr.e:t lltlnols (C'APCIL.J, and in lad: DCEO worked
with. them in preparing their respon~.



                                                WW\v.rldcea.nat
       soo~cMatWe                       IOOfl't:SIIIandc-fph ~~ Sult413~           2l09Wt!.CMaln. ~l-11f
 Spri~ld.lli~M~i~oi!Q7Dl·T64l               Chlc:ag~ dllh01t.60601-Jl1~           M11iot\ IPinoJJ629S9-118G
li'1~75DO·lm::~S                         Jl2.1914-l119 ·lDD: I!OOJ78S.(.QISS   411/S01-A»t. •too: aoonSS«~SS
                                                                                                                       Page 2 of 3 





     17,2013
Page 12


INADEQUATRY SUPPORT!D DIRECT COSTS

n.~ OIG fl.n dlnc statts that CAPCil did not ad~ uattly sut~port 5102.032 In ctrta in <MU that were
a ..ctty darged to tho llocoY<rv 1><.1. GJ11nl. Those , ..., benefitted m ultiple p«>j e<IS 1..ttlte 111<>
-                ptOIIIded by CAI'OI. was tnad<quato to . . - Uut lhe<e costs ....ted solely to '""
Re«m<y Acl lfa nL CAPelL's metho~s fo< a llocod ng toSU to ftdcral awatds ~ not comply wllt12 (fit
pl20.

OCE'O Rt.tponu : DCEO doas not <ol\cur. Using the SJme methodology ot total grant expenditures IIStd
by the OJG in tNt lnltl.tl repor1 10 CAPCtL bed: ~n Apr41 2U12, DCEO agrees with CAPCIL t l\llt the
expenditures .sllould be lot thf! 17 month petiod o f the Recovery Att and not the entire potkld c.f the
Recovery 1\r;t e~ nd both tt1e 2009 illd 2010 r~ular CSI:IG grant periods. Using the 17 month Recovery Act
period, OCEO also actees wtth CAPCIL that the aJnount of unallowable CO$IS for supplies Is $ 1,8!8 .31;
for telephone is S1. ?1S: for travel Is $1.,470; and for :staH development $1.362.20, for a tObl of
unaUow.abl~ e.'<l)~nd1ture s of $6,385.51. See CAPCtL•s responso ltlcl'l.lde<l with this response for tuntw!r
e~n.ticm     p1ees 1, 3, a 4 and allttibits.

lffin& the ""'tl>odolc>&Y ol total project (CS8G. """"""'Y N:J I> r ... Il l ) e'l'f!t'dltu~ used by the OIG,
and ior t11e 17 months of the Rt C:OYe-JV Ac:t g19:nt period oriy, ()CEO agrees With CAPO l tf\at ba~t:tl on
total l)roj tct Yel'licle fuel e~enditt.tres fa.r t.ht! Sc.r.lor Tran,portation Prt>grc&m. t here a~ no unatlowa bft
w.stsfurthe Re.~ry Act. Ste CAPell's response p•s 3 &.4 and (!)(hlblts.

Using th• methodolocv of totot proje<t (CS6G, ~cowry Act & r ille 111 B) e<oencliture• u5ed by tile OtG,
and for the 17 monthr of the lte-oovarv Ad grant peJ1od, DCEO agrees with CAPCIL that based on total
food ext~endlture s for the Seoior tlutrrtNJn project, thoce are no unallowabCe costs for d'le Recovery Ad.
See CA.PCIL' s response p&g:el S & 6 and exhibta.

Total l.lrtOIH>wobt( Casts m idN!Nfltd b.- DCEO: S6 38$,51


WENT ASSISTANCE msT$ INAOEQUATEI.YOOOJMIM'ID

The OfG ftndlng S.tltA!I:S tlwtt ChPCIL dK:I not adequaWI'f dotument d ienl iS~Istanoo costs charted to tt1e
Rett~\"f.l'y Art   CAPCtL did not follow its own policlM Jnd procedui"Qs for maint~in ing                ade-'-uatt
supportlng documtntarlon fDr di~nt aS$iStance costs.

ocro Raooo;e· OCEO doas not concur. Upon N!coJpt. of tl'le CAPC.L preliminary flnd,ngs letter. OCEO
~taft met with CAPell mff to detormine if documentation \119$ available or <ould be created based on
dient fifea. rt WIJ discovered" that time that CAPCILstaff h1d failed to submit to th• OIG .a loa ot food
~ft CAr<ls which conalt~ecl clit('lt .sf8n<)tue?s a.nd thl nun'lber of c01rds i.sstJed. CAPell ~t~tf, with
ASSistance from oa:o, yefified the list thto~ cliell( Gles.

The CAPC!l otolf, • !so witb tl>e..........,. af DCEO, crut~ onooh<r food log(mNt cants) wNcll wos also
..,.;fled lhrol.tt:l> ditt~t file'S l hll togO!he< wtal in • ..,.., of the $&,000 i<femtfl•d as unodo-ble by the
OIG. See CAPOl' s respons• pa~ 6 and e-xhibJts.

TO!"/ UtwllowobJtt Cqsts M idenrifitd bv pqq· $q.DO
                                                                                                           Page 3 of 3 





           11. 20B
Page       13
lACK OF ADEQUAtE MONITORING PROCfDUReS

Ttla OIG finding !Ute$ that the State doc~ nl)t have .adequate monitoring procedu~s to ens.ur• that tht'
Rewvery Act costs daimed for CAPCIL"s program e)(pendJtures for dirett c:osu atld (lient as:sistin~e
costs w~te aiSow.Jbte. The DCl.O docs In ract have fiscal monitoring procedures that ttst expenditures to
ensure they .are dlowablt, nece-ssary, and ~sonable.

As stated previo..sly, the OC£0 recelwd na administnlive funds witl1 whi'll to mo:tltor the Community
Action Agencies' use of the Re~ery Act funds. the DCEO used regutar CSBG funds tg conduc;t
monitoring of lht Reoowu·y Aet funds atthough onlv 2 to 2.S days. were allocated f.3r ~ach visit if\ otd~r
tl) tl)ndua a fiscal review of aU 36 Commul\ity Action Agencies and one stlte-Mde rr.lgr~nt organization.

Sin~;e   the first pretlmina.y OIG reports   wP.M ~ived.        DC£0 has ~tilted durln5 meetings with the
Communlty Aeticn Agencies tile iss-ue~ and concem~ identified duting tM OIG nzvi~ws, al'ld provided
instrvt;tion on corrf'Cting or avoiding tt.e situation. DCEO CSBG staff has also t•pdated monitoring tooZs
tG reflect somi! d the issue~ identified dtu1n~ the OJG re"ilhll$. DCEO will continue ta provide tRinif~i:
and tedmlt:.tlass-~taooe wh~n issues. or collCP.rns are ideMified.


In condusiOil, DCEO befle\>E'S that bc.sed on the DCEO review a totill of $6.38~.51 is unallowilble t~nd
should b~ returned to the U. $. Deptlrtment of Hetilth and Kum&n Services In un~st•ltt~d funds.

Tqrolllnallawtzble Costs as identjfied bv DCfD: $6 28;-..:'il


Sllotlld you have ~uestlons. ot '";s.h to di~ss this response.. please feel free ta cort1c;t M$. GaiJ Hedges
at 217/735-1709 ·)rvia e-mail a.t gajl hfdges@llllnols.gov.      · :·


1t"''"'Y·            D               <
J*k./'- ~ ~J-~s
.Adam Pollet,
Acting Dire'=tor
Illinois Oet~artn''ll~ht of Commerce & E(onomi~; Opportunity
500 (. Monroe Sl:·eet
Spriogfield, IL 62701

Endosure

((..;     Fra:nk;e Alwater.. Ading Deputy Diret:tor. DCEO
          Gall He-dg.es, CSBG Pto&ram M.a:nag.er
